HHS/OIG-Audit-"Ryan White Title I Funds Claimed By An Adult Day Health Care Contractor Of The San Francisco Eligible
Metropolitan Area For The Fiscal Year Ended February 28, 2002,"(A-09-03-01018)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed By An Adult Day Health Care Contractor Of The San Francisco Eligible Metropolitan
Area For The Fiscal Year Ended February 28, 2002," (A-09-03-01018)
February 9, 2005
Complete
Text of Report is available in PDF format (1.83 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the AIDS Office, a Ryan White Title I grantee, ensured that Continuum
HIV Day Services (Continuum), one of its adult day health care contractors (1) provided the expected program services to
clients eligible for CARE Act Title I and (2) followed Federal requirements for claiming program costs under CARE Act Title
I.  For two of three programs at Continuum, the AIDS Office ensured that Continuum provided the expected program services
and followed Federal requirements for claiming program costs under CARE Act Title I.  However, for the remaining program
(Integrative Services), Continuum did not have documentation to support that some program services were provided and did
not follow Federal requirements for claiming costs.  In addition to three procedural recommendations, we recommended
that the AIDS Office refund $42,625 to the Federal Government, the total amount reimbursed to Continuum in excess of allowable
program costs.